American 1 Credit Union

VISA CREDIT CARD AGREEMENT ADDENDUM TO
SINGLE SIGNATURE LENDING PLAN

718 E. Michigan Avenue
Jackson, Michigan 49201
(888) 213-2848
BORROWER 1 NAME

ACCOUNT NUMBER

BORROWER 2 NAME

DATE

Thank you for opening a Visa Credit Card sub-account under your Single Signature Lending Plan ("Plan"). This Visa Credit Card Agreement is an addendum
to your Plan and is hereby incorporated into and becomes a part of your Plan. Purchases or transactions made on your Card will be subject to the terms of
your Plan, this agreement, and your Truth in Lending Disclosure. Please keep this agreement and your Truth in Lending Disclosure with your Plan.
VISA CREDIT CARD AGREEMENT
IN THIS AGREEMENT THE WORDS "I," "ME," "MY," AND "US" MEAN EACH AND ALL OF THOSE WHO APPLY FOR OR USE THE CARD. "CARD" MEANS THE VISA CREDIT
CARD AND ANY DUPLICATES AND RENEWALS WE ISSUE. EVERYONE WHO RECEIVES, SIGNS OR USES A CARD ISSUED UNDER THIS AGREEMENT MUST BE A
MEMBER OF THIS CREDIT UNION AND A BORROWER ON THE PLAN. BY SIGNING OR USING THE CARD, I AGREE TO THE TERMS OF THIS AGREEMENT AND PROMISE
TO PAY ALL AMOUNTS DUE. "ACCOUNT" MEANS MY VISA CREDIT CARD LINE OF CREDIT SUB-ACCOUNT WITH YOU. "YOU", "YOUR" AND "YOURS" MEANS THIS
CREDIT UNION.

1. SECURITY: I SPECIFICALLY GRANT YOU A CONSENSUAL
SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS I
HAVE WITH YOU NOW AND IN THE FUTURE TO SECURE
REPAYMENT OF CREDIT EXTENDED UNDER THIS AGREEMENT. I
ALSO AGREE THAT YOU HAVE SIMILAR STATUTORY LIEN RIGHTS
UNDER STATE AND/OR FEDERAL LAW. THE GRANTING OF THIS
SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF
CREDIT UNDER THIS AGREEMENT. IF I AM IN DEFAULT, YOU CAN
APPLY MY SHARES TO THE AMOUNT I OWE. Shares and deposits in
an Individual Retirement Account or any other account that would lose
special tax treatment under state or federal law if given are not subject to
this security interest.
If I have other loans with you, collateral securing such loans may also
secure my obligations under this Agreement, unless that other collateral is
my principal residence or non-purchase money household goods.
2. Using My Card. I may use my Card to make purchases from merchants
and others who accept VISA Cards. However, I may not use my Card to
initiate any type of gambling or wagering transactions that are in violation of
applicable law. If I wish to pay for goods or services over the Internet, I may
be required to provide card number security information before I will be
permitted to complete the transaction. In addition, I may obtain cash
advances from the Credit Union and from other financial institutions that
accept VISA Cards, and from some automated teller machines (ATMs). (Not
all ATMs accept VISA Cards.) To obtain cash advances from an ATM, I must
use the Personal Identification Number (PIN) that is issued to me for use with
my Card. I agree that I will not use my Card for any transaction that is illegal
under applicable federal, state or local law. If use of my PIN constitutes an
Electronic Funds Transfer, the terms and conditions of my EFT Agreement
may also effect my rights.
3. Responsibility. I agree to pay all charges (purchases and cash
advances) to my Account that are made by me or anyone whom I authorize
to use my Account. I also agree to pay all interest charges and other charges
added to my Account under the terms of this Agreement or another
agreement I made with the Credit Union. If this is a joint Account, Section 14
below also applies to my Account.

Charge. Cash advances and balance transfers are always subject to a
Interest Charge from the later of the date they are posted to my Account or
from the first day of the billing cycle in which the cash advance or balance
transfer is posted to my Account.
5. Other Charges. I promise to pay all fees disclosed to me on the
Truth-in-Lending Statement, such as late payment fees, over-the-credit-limit
fees, and other fees.
6. Payments. Each month I must pay at least the minimum payment
shown on my statement by the due date specified on the statement. If my
statement says the payment is "Now Due," my payment is due no later than
twenty-five (25) days from the statement closing date or 21 days from the
date you mail or deliver the statement, whichever is later. I may pay more
frequently, pay more than the minimum payment or pay the Total New
Balance in full. If I make extra or larger payments, I am still required to make
at least the minimum payment each month my Account has a balance (other
than a credit balance). The minimum payment is 3% of my Total New
Balance, or $20.00, whichever is greater, plus the amount of any prior
minimum payments that I have not made, and any amount I am over my
credit limit. The Credit Union also has the right to demand immediate
payment of any amount by which I am over my credit limit.
7. Default; Acceleration; Credit Suspension; Collection Costs. I will be
in default if: (1) I fail to make any payment on time; (2) if I fail to keep any
promises I have made under this Agreement or under other Agreements I
have with you; (3) if I die; (4) if I file a petition in bankruptcy or have a
bankruptcy petition filed against me, or if I become involved in any
insolvency, receivership or custodial proceeding; (5) if anyone attempts to
take any of my funds held by you via legal process or if I have a judgment or
tax lien filed against me; (6) if I make any false, inaccurate, or misleading
statements in any credit application or credit update; or (7) if you, in good
faith, believe that my ability to repay what I owe is or soon will be impaired, or
that I am unwilling to make my payments.
If I am in default, you have the right to demand immediate payment of my full
account balance without giving me notice. If immediate payment is
demanded, I agree to continue paying interest charges and fees until what I
owe has been paid, and any shares that were given as security for my
account may be applied towards what I owe. I agree to pay all reasonable
costs of collection, including court costs and attorney's fees, and any costs
incurred in the recovery of the Card, subject to applicable law. Even if my
unpaid balance is less than my credit limit, I will have no credit available
during any time that any aspect of my account is in default.

4. Interest Charges. I agree to pay interest at the rate(s) disclosed to me
at the time I open my account and as may be changed from time to time in
accordance with applicable law. The balances subject to the periodic Interest
8. If My Card is Lost or Stolen or if an Unauthorized Use Occurs. I
Charge are the average daily transactions balances outstanding during the
agree to notify you immediately if my card is ever lost or stolen or if an
month (new and previous). To get the average daily balance, you take the
unauthorized use may have occurred. The telephone number to call is (888)
beginning balance of my Account each day, add any new purchases, cash
213-2848, and I agree to follow up the call with notice in writing to you at: 718
advances, insurance premiums, debit adjustments or other charges and E. Michigan Avenue, Jackson, Michigan 49201. I also agree to assist you in
subtract any payments, credits and unpaid Interest Charges. This gives you determining the facts, circumstances and other pertinent information relating
the daily balance. Then, you add up all the daily balances for the billing cycle
to any loss, theft or possible unauthorized use of my card and comply with
and divide them by the number of days in the billing cycle. The Interest
such procedures as you may require in connection with your investigation,
Charge for a billing cycle is computed by multiplying the average daily
including filing a police report and otherwise assisting in the prosecution of
balance subject to a Interest Charge by the Daily Periodic Rate times the any unauthorized user. I will be liable for any unauthorized use over the Visa
Network only if you can prove that I was grossly negligent in my use or
number of days in the billing cycles.
I can avoid Interest Charges on purchases by paying the full amount of the handling of my card, or if you can prove that I used the card fraudulently. My
liability for unauthorized use on networks other than the Visa Network will not
entire balance owed each month within 25 days of my statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from exceed $50.00. In any case, I will not be liable for any unauthorized use that
occurs after I notify you of the loss, theft, or unauthorized use.
the date they are posted to my Account, will be subject to a Interest
LASER SYM FI13874 Rev 7-2015
COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.
page 1 of 2

BORROWER 1 NAME

ACCOUNT NUMBER

BORROWER 2 NAME

DATE

9. Change of Terms. The Credit Union may change the terms of this
Agreement from time to time subject to applicable law. Notice of any change
will be given in accordance with applicable law. If permitted by law and
specified in the notice to me, the change will apply to my existing Account
balance as well as to future transactions.
10. Returns and Adjustments. Merchants and others who honor my Card
may give credit for returns or adjustments, and they will do so by sending the
Credit Union a credit slip which will be posted to my Account. If my credits
and payments exceed what I owe the Credit Union, the amount will be
applied against future purchases and cash advances. If the credit balance
amount is $1 or more, it will be refunded upon my written or verbal request.
11. Additional Benefits/Card Enhancements. The Credit Union may from
time to time offer additional services to my Account, such as travel accident
insurance, at no additional cost to me. I understand that the Credit Union is
not obligated to offer such services and may withdraw or change them at any
time.
12. Foreign Transactions; Currency Conversion. Purchases and cash
advances made in foreign currencies will be billed to me in U.S. dollars.
Transactions processed outside of the United States will be charged a foreign
transaction fee in an amount to be determined by the Credit Union,
regardless of whether there is a currency conversion associated with the
transaction. The conversion rate in dollars will be a rate selected by VISA
from a range of rates available in wholesale currency markets for the
applicable central processing date, which rate may vary from the rate VISA
itself receives, or the government-mandated rate in effect for the applicable
central processing date in each instance. A foreign transaction is any
transaction that you complete or a merchant completes on my card outside of
the U.S., Puerto Rico or the U.S. Virgin Islands; this may include internet
transactions.

13. Plan Merchant Disputes. You are not responsible for the refusal of any
plan merchant or financial institution to honor my card. Also, you are not
responsible for goods or services I purchase with the card unless (a) my
purchase was made in response to an advertisement you sent or participated
in sending me; (b) my purchase cost $50.00 or more and was made from a
plan merchant in my state or within 100 miles of my home; and I have made a
good faith attempt, but have been unable to obtain satisfaction from the plan
merchant. I must resolve all other disputes directly with the plan merchant.
14. Joint Accounts. If this is a joint Account, each of us will be individually
and jointly responsible for paying all amounts owed under this Agreement.
This means that the Credit Union can require any one of us individually to
repay the entire amount owed under this Agreement. Each of us authorizes
the other(s) to make purchases or cash advances individually. Any one of us
may terminate the Account and the termination will be effective as to all of us,
but both of us will still be responsible for repayment all amounts owing.
15. Effect of Agreement. This Agreement is the contract which applies to
all transactions on my Account even though the sales, cash advances, credit
or other slips I sign or receive may contain different terms.
16. Transaction Slips. My monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made,
but sales, cash advances, credit or other slips cannot be returned with the
statement.
17. NOTICE TO UTAH BORROWERS: This written agreement is a final
expression of the agreement between me and the Credit Union. This written
agreement may not be contradicted by evidence of any oral agreement.

BILLING RIGHTS NOTICE
After we finish our investigation, one of two things will happen:

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under
the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es)
listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
-

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if
you do, we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already corrected
the error.
2. Within 90 days of receiving your letter, we must either correct the error
or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
- We cannot try to collect the amount in question, or report you as
delinquent on that amount.
- The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
- While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
- We can apply any unpaid amount against your credit limit.

-

If we made a mistake: You will not have to pay the amount in question
or any interest or other fees related to that amount.
- If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date payment is
due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount
due on the purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

page 2 of 2

